<html>
<title> - STATE SPONSOR OF TERROR: THE GLOBAL THREAT OF IRAN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                       STATE SPONSOR OF TERROR: 
                       THE GLOBAL THREAT OF IRAN

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

                            Serial No. 114-9

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-283PDF                      WASHINGTON : 2015                         
                                 
________________________________________________________________________________________                                 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="492e3926092a3c3a3d212c2539672a262467">[email&#160;protected]</a>  
                           
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Frederick W. Kagan, Ph.D., Christopher DeMuth chair and director, 
  Critical Threats Project, American Enterprise Institute........     6
Mr. Ilan I. Berman, vice president, American Foreign Policy 
  Council........................................................    12
Mr. Tony Badran, research fellow, Foundation for Defense of 
  Democracies....................................................    23
Daniel L. Byman, Ph.D., professor, Security Studies Program, 
  Edmund A. Walsh School of Foreign Service, Georgetown 
  University.....................................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Frederick W. Kagan, Ph.D.: Prepared statement....................     8
Mr. Ilan I. Berman: Prepared statement...........................    14
Mr. Tony Badran: Prepared statement..............................    25
Daniel L. Byman, Ph.D.: Prepared statement.......................    36

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61


                      STATE SPONSOR OF TERROR: 
                       THE GLOBAL THREAT OF IRAN

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements, objections, questions, and extraneous materials for 
the record, subject to the length limitation in the rules.
    The Iranians are the largest state sponsor of terror in the 
whole world. Iranian proxy groups like Hezbollah resource and 
execute attacks around the world. Iranian IRGC and Quds Force 
troops personally support and engineer attacks on a global 
scale. These aren't rogue elements; these attacks are directed 
by the Iranian regime.
    This is the very same regime we are in good-faith 
negotiations with to curb their nuclear ambitions. In my 
opinion, it is dreaming to believe Iran would uphold any 
eventual agreement. If sanctions are ultimately lifted through 
the ongoing negotiations, they should only be sanctions that 
have to do with Iran's nuclear program. Sanctions put in place 
for its terrorist activity, although minimal, in my opinion 
should never be lifted.
    Iranian-backed terror plots are a threat to everyone. In 
2011, the Iranians plotted to assassinate the Saudi Ambassador 
to the United States in Washington, DC. That plot, fortunately, 
was uncovered and stopped before it could be carried out.
    Recently, the suspicious death of Argentinian prosecutor 
Alberto Nisman has raised eyebrows. Nisman was found dead 1 day 
before he was about to reveal details of Iran's involvement in 
the 1994 bombing of a Jewish community center in Buenos Aires 
that killed 85 people--ironic timing, it seems. Given Iran's 
previous behavior abroad, I believe Nisman's death should be 
thoroughly investigated to see if the Iranians were involved in 
that episode.
    In Yemen, would-be rebels overthrew the government with the 
support of--guess who?--the regime in Tehran. Iran has long 
supported Houthis against Yemen's Sunni tribes. This illegal 
act also complicates U.S. counterterrorism efforts against 
AQAP.
    In Iraq, Iran is reenergizing Shia death squads to prop up 
the government in Baghdad. In fact, these Shia militias that 
Iran supports, trains, and resources are much more capable than 
Iraq's own army. There are reports that Iraqi Army units are 
being led by these Shia militia commanders, controlled by Iran. 
Even though Malaki is gone, the new Iraqi Prime Minister, al-
Abadi, doesn't seem to be trying to distance himself from 
Iranian control.
    And Iranian hands are also in the mischief--they have 
created mischief all over the attacks and murders of freedom 
fighters in Camp Liberty and Camp Ashraf. And no one has ever 
been held accountable for these homicides that have taken place 
over the last several years against these Iranian dissidents in 
Iraq.
    The lack of inclusive government and Iran's control of the 
security apparatus does not bode well for the push to defeat 
ISIL or bring the moderate Sunni tribes into the fold.
    In neighboring Syria, Iran is even stronger. Iran virtually 
controls the Assad regime and helps the murderous dictator 
cling to power every day. Many believe that if it weren't for 
Iran, Assad would already have been overthrown.
    Iran's power play in the region is paying dividends at the 
expense of moderate Sunni countries in the region. But Iran's 
main target is still Israel and Israeli interests around the 
world. In the last 3 years alone, Iran has killed or tried to 
kill Israelis, not in Israel but in Bulgaria, India, Thailand, 
and Georgia, and the list goes on and on. It is truly a 
worldwide assault on Israel.
    Iran must be held accountable for its state sponsorship of 
acts of terror. It should not be given a pass just because it 
is talking to us about a different issue, its increased nuclear 
weapon program. All of these activities are part of Iran's plan 
to expand its influence and its stature and its terror around 
the globe.
    And now I will recognize the ranking member, Mr. Keating 
from Massachusetts, for his opening statement.
    Mr. Keating. Thank you, Chairman Poe.
    And I would also like to thank our witnesses for being here 
today.
    For over the past 30 years, Iran's stance toward the United 
States has been antagonistic, to say the least. Despite our 
renewal of direct talks with Iran, the Iranian regime must 
understand that, regardless of any progress made on the nuclear 
issue, the United States and our allies will not turn a blind 
eye to Iran's established and potentially growing role as a 
state sponsor of international terrorism.
    Working mostly through the Islamic Revolutionary Guard 
Corps, Quds Force, and its protege, Hezbollah, Iran has 
continually targeted American citizens and our allies in every 
corner of the globe. According to the latest State Department 
country reports on terrorism, Hezbollah, backed by millions of 
dollars in Iranian funding, has significantly increased its 
global terrorist activities since 2012. The report states that 
the United States has seen a resurgence of activity by Iran's 
Islamic Revolutionary Guard Corps, Quds, the Iranian Ministry 
of Intelligence and Security, and Tehran's ally Hezbollah.
    On January 23, 2013, the Yemeni Coast Guard interdicted an 
Iranian dhow carrying weapons and explosives likely destined 
for Houthi rebels. On February 5, 2013, the Bulgarian 
Government publicly implicated Hezbollah in July 2012 at the 
Burgas bombing that killed 5 Israelis and 1 Bulgarian citizen 
and injured 32 others.
    On March 21, 2013, a Cyprus court found that a Hezbollah 
operative was guilty of charges stemming from his surveillance 
activities of Israeli tourist targets in 2012. On September 
18th, Thailand convicted Atris Hussein, a Hezbollah operative 
detained by Thai authorities on January 2012.
    And on December 30, 2013, a Bahraini Coast Guard 
interdicted a speedboat attempting to smuggle arms and Iranian 
explosives, likely destined for armed Shia opposition groups in 
Bahrain. During an interrogation, the suspects admitted to 
receiving paramilitary training in Iran.
    In addition, we have seen numerous other examples of Iran's 
direct involvement in or support for terrorist activities, 
including the 1983 Marine barracks bombing in Lebanon, the 1994 
bombing of the AMIA Jewish center in Argentina, the 1996 Khobar 
Towers bombing in Saudi Arabia, and thwarted terrorist plots in 
Cyprus, Georgia, Kenya, Thailand, and even right here in 
Washington, DC, against the Saudi Arabian Ambassador that the 
chair mentioned.
    For the past 3 years, Hezbollah and Quds have funneled 
money, fighters, and weapons into Syria. Certain senior Quds 
Force personnel, including General Hassan Shateri, have even 
died in that struggle.
    So, in conclusion, with attention focused on potential 
diplomatic solutions to the Iranian nuclear crisis, it is 
important to remind the world that we have not and will not 
ignore Iran's destabilizing actions around the globe and its 
continued support to groups who continue to support or plan 
attacks against American citizens and interests as well as 
against our allies.
    I look to our witnesses today to provide us with more of a 
complete picture of Iran's activities, what drives its 
sustained support for international terrorism, and what options 
the United States has to curtail Iran's support for these 
groups, particularly through nuclear talks.
    With that, I yield back. And thank you, Mr. Chairman.
    Mr. Poe. I thank the gentleman.
    The Chair will now recognize the gentleman from California, 
Mr. Issa, for an opening statement.
    Mr. Issa. Thank you, Chairman.
    Today's hearing is important, but it is not new. We will 
say a great many things, and very few of them will be new.
    Certainly, questions about Armenia's banking relationship 
with Iran, certainly authorized, pushed, prodded, and cajoled 
by Russia, is new and concerning when we are looking to Russia, 
in theory, as an honest broker to help--a destabilizing 
effect--be thwarted of their nuclear ambitions. But, of course, 
Russia's involvement makes it very clear that, in fact, all 
they are really doing is guaranteeing a slow march toward a 
nuclear Iran.
    Sanctions are the subject, Iran is the subject, but we 
would be remiss if we didn't do two things: Recognize that, all 
the way back in the early 1980s, the late President Ronald 
Reagan referred to an evil empire, at that time the Soviet 
Union. They were evil because of their participation around the 
world in fomenting the kinds of things that Iran has been 
fomenting since 1979.
    Today, Iran and Russia are partners more than ever before 
in, in fact, destabilizing activities. As both the chairman and 
ranking member mentioned, rightfully so, Syria only exists, 
Hezbollah only exists, Hamas is only a dangerous force because 
of the direct support from Iran, either directly in money or 
through its puppet, Syria.
    To put it in perspective, today we will talk about Iran as 
though there is some doubt as to what they might do. But, in 
fact, I was a 26-year-old Army lieutenant in 1979. I am now a 
61-year-old Congressman saying, does it take more than 36 years 
of direct and constant involvement in terrorism, destabilizing 
countries around the world, and being involved time and time 
again in assassinations, kidnaps, and murders?
    My point today and, Mr. Chairman, I think what this hearing 
will show is that Einstein would clearly call it insanity after 
36 years of consistently getting the same result from 
approaches to Iran to believe that this round of negotiations 
by the administration will yield anything other than what we 
have had for 36 years since the Ayatollah Khomeini and his gang 
took over Iran.
    And, with that, Mr. Chairman, I want to thank you for the 
opportunity to make a short opening statement. I look forward 
to questions, particularly questions on Russia's involvement 
through Armenia in the backdoor circumvention of the sanctions 
as they are in place today.
    And I yield back.
    Mr. Poe. The Chair will now recognize another gentleman 
from California, Mr. Sherman, for his opening statement.
    Mr. Sherman. Thank you.
    There are three forces in the Middle East, or constellation 
of forces. You have the forces of reason. You have Sunni 
extremists, typified by Al Qaeda and ISIS. And, finally, and 
perhaps deserving most of our attention, is the Shiite 
alliance, quarterbacked by Iran and including Hezbollah, 
including much of the Baghdad government and certainly the 
Shiite militias that are run by the Iranians, and, finally, 
Assad.
    We will meet as a full committee in this room tomorrow to 
discuss ISIS. And everybody is talking about ISIS, and they 
have videos of evil to show that they are on the cutting edge 
of unspeakable crimes. But the fact is that the Shiite alliance 
headed by Iran is far more deadly than ISIS, just in Syria, 
having killed perhaps as many as 200,000 people, and certainly 
they have killed more Americans, starting with the Marine 
barracks in Beirut in--I believe it was 1983.
    The Shiite alliance is more dangerous than ISIS. ISIS 
aspires, may have some capacities as of yet unproven, to carry 
out directed attacks in the West. As my colleagues in their 
opening statements have detailed, Iran and its allies have 
killed people on virtually every continent, save Antarctica.
    Now, it is interesting; ISIS, I think, wants to be bombed 
by the United States. You would have to say they were asking 
for it, and we have obliged. Assad clearly did not want to be 
bombed, and the other elements of the Shiite alliance do not 
want to be bombed by the United States. We have obliged. And 
before we wage more intense war on ISIS, we have to ask who 
will fill that space and are we not weakening an enemy of the 
Shiite alliance without noting that that alliance is a greater 
threat to us than ISIS.
    Finally, though, I would agree that talking to the Iranians 
is not a bad thing as long as we do not check our skepticism at 
the door. Ronald Reagan negotiated with the entity he described 
as an evil empire, and we certainly did business even with 
Stalin. So talking is fine. You don't make peace with your 
friends; you make peace with your enemies. But let's not delude 
ourselves. Iran wants nuclear weapons.
    I yield back.
    Mr. Poe. I thank the gentleman.
    The Chair will now recognize the gentleman from 
Pennsylvania, Mr. Perry, for his opening statement.
    Mr. Perry. Thanks, Mr. Chairman.
    Since 1979, Iran has been responsible for countless 
terrorist plots directly through regime agents or indirectly 
through proxies like Hamas and Hezbollah. The IRGC is believed 
to have had a direct role in the 1983 bombing of the U.S. 
Marine barracks and French military barracks in Beirut, 
Lebanon, which killed 299 American and French soldiers. After 
the attacks of September 11, 2001, the Iranian regime assisted 
the Taliban, Al Qaeda, and radical Shiite militias battling 
U.S. and allied soldiers in Afghanistan and Iraq. In 2011, the 
U.S. Government announced it foiled an Iranian terrorist plot 
to work with Mexican drug cartel members to assassinate the 
Saudi Ambassador to the United States by bombing a Washington, 
DC, restaurant he frequented. And, in 2012, the U.S. State 
Department reported a clear resurgence in Iranian terrorist 
activities and that Hezbollah's terrorist activities had 
reached a tempo unseen since the 1990s.
    This is nothing new, and it is imperative that we keep 
these facts, ladies and gentlemen--these facts--in mind during 
the ongoing nuclear negotiations with the Iranian regime.
    And I yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair will now introduce all four of our witnesses. And 
we will see how far we can go, because there is a voting 
process. And after that, we will come back and go from there.
    Dr. Fred Kagan is the Christopher DeMuth chair and director 
of the Critical Threats Project at the American Enterprise 
Institute. Mr. Kagan is also a former professor of military 
history at the United States Military Academy at West Point.
    Mr. Ilan Berman is vice president of the American Foreign 
Policy Council. Mr. Berman is widely published on issues of 
regional security and foreign policy and has also consulted for 
the CIA, the Department of Defense, and other government 
agencies.
    Mr. Tony Badran is a research fellow at the Foundation for 
Defense of Democracies. Mr. Badran has written extensively on 
Hezbollah and focuses his research on countries in the Levant 
and their regional relationship with militant and terrorist 
groups.
    Dr. Dan Byman is a professor in the Security Studies 
Program at Georgetown University School of Foreign Service. Dr. 
Byman is also the research director of the Center for Middle 
Eastern Policy at the Brookings Institute, where he specializes 
in Middle East security and counterterrorism.
    Dr. Kagan, we will start with you. You have 5 minutes.

  STATEMENT OF FREDERICK W. KAGAN, PH.D., CHRISTOPHER DEMUTH 
    CHAIR AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Kagan. Thank you, Mr. Chairman, Ranking Member Keating.
    You have stolen a lot of my testimony among the four 
statements, so I think I will----
    Mr. Poe. We read your testimony, so we just requoted it.
    Mr. Kagan. And I won't weary your ears by repeating it one 
more time, but instead I would like to make just a few of the 
points in here and speak to some of the issues that you have 
raised in your statements briefly.
    We all agree about what the scale of the Iranian threat is, 
that Iran is acting as an enemy state, that it is engaged in a 
lot of malign activity in Syria and Iraq and Yemen, and so 
forth.
    I had the opportunity a few weeks ago to spend 4 days in 
Baghdad at the invitation of Prime Minister Abadi, and it was 
fascinating. And I would like to share with you, actually, a 
couple of observations because I think they bear on some of the 
comments that were made today.
    Yes, Quds Force Commander Qasem Soleimani spends a lot of 
time in Iraq. Yes, Iranian-controlled Shia militias, 
particularly the Badr Corps, control Diyala province and, I 
think, largely control the activities of the Fifth Iraqi Army 
Division in that province. And we certainly have other lethal 
Shia militias, such as Asaib Ahl al-Haq, which was deployed in 
Syria and then is now back in Iraq and so on.
    But I think that it is too much to say that Abadi is 
controlled by Iran or desires to be. And I think it is also too 
much to say that the Iraqi Army is controlled by Iran or 
desires to be. That was not at all the sense that I got from 
speaking with numerous Iraqi Army officers and even Shia 
politicians.
    We need to remember that the Iranians are generally as 
offensive to their neighbors as they are to us, if not more so, 
and their ability to antagonize is very high. I did absolutely 
see in the middle of the Green Zone a billboard memorializing 
Iranian IRGC Brigadier General Taghavi, who was killed around 
Samarra, which had the IRGC logo at the bottom of it. And that 
took my breath away because I haven't seen that in Iraq before.
    On the other hand, what I generally heard was a desire for 
the United States to offer an alternative to a very overbearing 
neighbor that the Iraqis know does not have their best 
interests at heart, even the Shia.
    And I think that, as we reflect on Iraq and we reflect on 
the role that Iran is playing in Iraq, we need to reflect on 
our role also, and we need to understand the issue of what 
alternative we are giving the Iraqis. We are providing a lot. 
The air campaign is more effective than has been made out, but 
we could be providing a lot more. And if we would lean into an 
attempt to help support the new government in Iraq, I think we 
would have a chance of weaning it away from Iranian control, 
which is always problematic in an Arab state.
    I think one of the things that it is very important to 
recognize is a threat that emanates from Iran is not just the 
evil that Tehran intentionally does but the evil that it does 
unintentionally, as well. It is a pose of the regime that it is 
an Islamic regime and that it is not a Shia regime. They have 
not been able to convince hardly anybody except themselves of 
the truth of that.
    And the fact is that the Iranians back sectarian groups 
pretty much across the board. And those sectarian groups are 
accelerating and driving sectarian violence throughout the 
region, which, in turn, is, in my opinion, one of the principal 
drivers of mobilization for Al Qaeda and its affiliates and 
radicalization for Muslims in the United States and the West.
    So the problem is not simply that we need to get past our 
hostility with Iran, which I agree is extremely unlikely. The 
problem is that, even if we decided that we were going to try 
to ally with Iran in the region and we were going to rely on 
Iran as a partner, as some have suggested, although no one in 
this room, they would do it badly, and they would continue to 
do it badly, and they would continue to cause more problems 
than they solve, to the extent that they ever solve problems, 
because Iran is really not much of a problem-solving state. It 
is much more of a problem-causing state.
    I think it is very important to make the point that the 
nuclear negotiations cannot be separated from concerns about 
Iranian activities abroad because any relaxation of sanctions, 
whether they are formally related to terrorist activities or 
not, will provide a massive influx of resources to the Iranian 
regime, which it will use in very predictable ways.
    It will use those resources, for one thing, as the Supreme 
Leader has announced and President Rohani has backed, to try to 
make Iran proof against sanctions anytime in the future. Will 
they be able to do that? Probably not. Will they be able to 
weaken our ability to use this economic lever in the future? 
Almost certainly.
    So we need to understand the risk that is inherent in 
relaxing sanctions in pursuit of a deal that appears to offer 
modest gains for us at best.
    And, lastly, Iran is under tremendous economic pressure 
from us and from low prices of oil, and that is likely to 
continue. The military adventurism that they are engaged in is 
expensive. Supporting the Assad regime is expensive. Doing a 
variety of other nefarious things that they do are expensive. 
If we relax sanctions in pursuit of this deal, we will be 
giving them the resources that they need at a moment of great 
pinch for them, and you can be certain that a fair percentage 
of those resources will be diverted to activities that we have 
articulated here as very problematic.
    I am over time, and I don't want to strain your patience. I 
will just say, if anyone is interested also in talking about 
the question of how much of a reformer and a moderate President 
Rohani is, I think that is a topic that bears quite a lot of 
discussion, as well.
    Thank you for the opportunity to speak to you.
    Mr. Poe. Thank you, Dr. Kagan.
    [The prepared statement of Mr. Kagan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Mr. Poe. Mr. Berman, 5 minutes.

   STATEMENT OF MR. ILAN I. BERMAN, VICE PRESIDENT, AMERICAN 
                     FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you, sir.
    Chairman Poe, Ranking Member Keating, thank you very much 
for the opportunity to appear before you today to discuss the 
global threat, the truly global threat, of Iran.
    This is a subject that unfortunately has not been addressed 
seriously or comprehensively over the last year and a half. 
Instead, if I could borrow a phrase from the late New York 
Senator Daniel Patrick Moynihan, we have defined Iran's 
deviancy down. We have concerned ourselves with the prospects 
of achieving a deal over Iran's nuclear program to the 
exclusion of a serious conversation about other aspects of 
Iran's rogue behavior. And we have neglected to think deeply 
and to focus on what Iran actually says and what it believes.
    That is a very good place to start, I think. The roots of 
Iran's current confrontational world view stretch back to the 
Islamic Revolution that occurred 36 years ago this month. That 
event enshrined the idea of exporting the revolution as a 
cardinal regime principle for Iran's new government, and it is 
an idea that remains very much in effect today.
    The State Department's most recent report on global 
terrorism trends, which all of you gentlemen referenced, makes 
a point of demonstrating that, even though Iran is constrained 
by international pressure, Iranian rogue activity globally is 
on the rise. Iran, in other words, is on the march.
    It is doing so in multiple theaters, from Syria to the 
Palestinian territories, to Africa, to even Eurasia. Because my 
time is limited here, let me focus simply on two.
    The first is Latin America, which is very much in the 
headlines today because of the suspected murder of Argentine 
prosecutor Alberto Nisman. But Iran's intrusion into the region 
is not a new phenomenon.It dates back to the early 1980s, when 
Iran helped Lebanon's Hezbollah set up shop in the tri-border 
region where Brazil, Argentina, and Paraguay intersect. That 
beachhead, in turn, allowed Hezbollah to carry out the 1992 
attack on the Israeli Embassy in Buenos Aires and, 2 years 
later, to carry out the attack on the AMIA center, which ranks 
as the largest incident of Islamist terrorism to date in the 
Western Hemisphere other than 9/11.
    But, over the past decade, Iran's regional footprint has 
gotten much larger. Beginning in 2005, Iran systematically 
expanded its contacts throughout the region, leveraging the 
radical regime of Hugo Chavez in Venezuela as a gateway to 
expand its ties to what are called the Bolivarian nations, the 
radical, leftist, anti-American nations of the region, in 
particular to the regime of Evo Morales in Bolivia and of 
Rafael Correa in Ecuador.
    But these formal ties have been mirrored by a large and 
effective clandestine network that Iran has succeeded in 
erecting in the region. Mr. Nisman, in his May 2013 report, 
detailed that Iran had succeeded over the preceding 30 years in 
establishing a terror network encompassing no fewer than 8 
countries in the region.
    Via that network, Iran has been able to attempt at least 
three attacks on the U.S. homeland over the past decade: The 
2007 attempt to blow up fuel tanks underneath JFK Airport in 
New York; the fall 2011 plan for widespread cyber attacks, to 
be carried out jointly by Venezuela and Iran; and, most 
famously, the foiled attempt to assassinate Saudi Envoy Adel 
al-Jubeir in a Washington restaurant in October 2011.
    In short, Iran's presence in the Americas is growing, and 
so is the threat that it has the potential to pose to the U.S. 
homeland from the Western Hemisphere.
    The second but equally germane field where Iran is 
expanding it activities is cyberspace. This capability, which 
has manifested since the popularization of Stuxnet in 2009 and 
2010, is not simply defensive in nature. It is aimed at both 
limiting access to the Internet among ordinary Iranians, a 
campaign domestically, and also an external campaign aimed at 
targeting Western institutions and infrastructure.
    The cybersecurity firm Cylance, in a December 2014 report, 
noted that, since 2012, Iranian hackers have attacked 
government agencies and companies in countries such as Saudi 
Arabia, South Korea, Turkey, and beyond. Here in the United 
States, Iranian entities have targeted financial institutions 
like Bank of America and JPMorgan Chase and have also hacked 
the Navy's unclassified email network. The study cites Israeli 
expert Gabi Siboni as saying that Iran should be considered a 
first-tier cyber power. It is one that can cause considerable 
harm to the United States via cyberspace if it chooses to do 
so.
    Sadly, a sober assessment of Iran's threat potential and 
its growing activism has been obscured by the ongoing talks 
over Iran's nuclear program. Today, we have become incentivized 
not to call attention to Iranian activities or to Iranian 
ideology lest a tactical bargain with the regime over its nukes 
becomes more difficult to obtain as a result. But, as I hope I 
have pointed out, making that choice, making that bargain, is 
something that we do at our great peril and to our great 
detriment.
    Thank you.
    Mr. Poe. Thank you very much.
    [The prepared statement of Mr. Berman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
                              ----------                              

    Mr. Poe. Mr. Badran, you can have 5 minutes, and then we 
will get Dr. Byman. And then we will break for votes and then 
come back for questions, so everyone knows the order of events. 
Thank you very much.
    Mr. Badran, you can proceed.

 STATEMENT OF MR. TONY BADRAN, RESEARCH FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Badran. Thank you, Chairman Poe and Ranking Member 
Keating. Thank you very much for inviting me to this very 
timely hearing.
    And I will talk a little bit about the organic relationship 
between Iran and Hezbollah but also the template that they have 
put together in the Middle East and how this poses a threat to 
U.S. interests there. I will give a brief synopsis, and I will 
be glad to talk about the details with answering your 
questions.
    The nature of the Iranian threat extends beyond terrorism. 
A senior Iranian official put it recently to Reuters, and he 
says, everything is about the balance of power in the region. 
So they are focused on that issue.
    And sensing that their moment has arrived, the Iranians are 
in the middle of an aggressive region-wide expansionist drive. 
They openly brag today about controlling four Arab capitals--
Baghdad, Beirut, Damascus, and Sana'a. In each of these 
capitals, the Iranians have developed proxies either by 
creating new militias on the Hezbollah model or by coopting 
local actors. And they are uses these proxies to extend Iran's 
reach and integrating them into a broader strategy targeting 
U.S. allies and interests.
    And Hezbollah is at the center of this strategy. Since the 
very beginning of the Islamic revolutionary regime, that was 
when Hezbollah was created, and its progenitors sought to spawn 
movements along that model in the Arab world to allow them to 
embed themselves in Arab societies and project influence.
    As Representative Issa said, this is not new. They are the 
same faces. The Defense Minister of Iran is the same person who 
was the IRGC commander in Lebanon at the time of the barracks 
bombing in Beirut. What is new, what the Iranians hadn't 
counted on, however, is that the United States would one day 
acquiesce to this bid of regional hegemony.
    When Iranian officials talk about the various assets that 
they are supporting in the Arab world, they have a point of 
reference, which is the Hezbollah model. It is a specific 
template which consists of developing political-military 
structures parallel to central Arab governments, especially 
where those governments are weak. And much like the Soviet 
Union before, they set up proxies to dominate states.
    So first there is what is called the Basij model, in 
reference to the Iranian paramilitary group. This is what we 
are seeing the Iranians now do in Iraq with the so-called 
Popular Mobilization Units. And ``basij'' is Farsi for 
``mobilization.'' So they are cloning structures. And in Syria, 
they are doing it with the so-called National Defense Forces.
    But the big assets really are the Hezbollah-style and 
Hezbollah-trained militias that operate either in coordination 
with or under direct control of the Quds Force, bear the IRGC 
logo, and adhere to the ruling idealogical doctrine that 
underpins the Islamic regime in Tehran. These are the militias 
that now effectively control the governments, the Arab 
capitals.
    Now, these Shiite militias also have a new function that 
had not been present before. They used to be deployed to do 
terror activities in the past, in the 1980s, as we have 
discussed, but now they are being used, especially the Iraqi 
militias, as an expeditionary force that can be sort of sent 
across borders to advance Iranian interests in neighboring 
countries like Syria and so on. But there is another aspect to 
this strategy, that this is not just an expeditionary force. 
They also look to have their assets dominate state 
institutions. And this is really a critical point.
    There is a synergy now that is growing, especially in 
Lebanon and Iraq, between Iran's assets and the security forces 
in both countries. This is a matter of great consequence 
because the United States has tacitly endorsed this synergy 
because it is focused on fighting Al Qaeda. So, effectively, we 
see the Iranians as partners in this fight, and the Iranians 
have recognized this opening and are exploiting it, positioning 
themselves as the only viable partners against Sunni extremist 
groups.
    Of course, this is a disastrous policy course for the 
United States. As things stand today, the Obama 
administration's partnership with Iran, de facto partnership 
across the region has resulted in the gradual loss of all 
commonality with traditional allies.
    But Iran's expansionist push, of course, is aimed at 
targeting these allies and their interests, as we saw in the 
Golan Heights recently. Iran has set up Hezbollah-Syria down 
there, and they are looking to set up a new front in the Golan. 
They are leading, currently, as we speak, an integrated attack 
pushing into southern Syria, to the borders of Jordan and 
Israel.
    Of course, as Ilan has talked about, this is a global 
threat. Peru and Uruguay recently--I am sure Ilan will talk 
about this some more--have caught Hezbollah members and Iranian 
senior diplomats at their Embassy planning operations.
    Yemen stands also as a major problem because it actually 
has a dual function, on the one hand to pressure Gulf allies, 
but on the other hand also, by controlling the straits of the 
Red Sea, this is Iran's preferred smuggling route into Gaza via 
the Sudan and the Red Sea. So they will then be in charge of 
the Hormuz Straits and the Bab-el-Mandeb Straits, which makes 
it a very strategic asset for them.
    Now, basically, Washington cannot lose sight of the fact 
that Iran remains an unreconstructed revolutionary actor, and 
it cannot just simply be integrated into a new security 
architecture, as the administration has made it known. And so 
we need to roll back that influence and disabuse it of this 
dream of regional hegemony.
    There are some steps that we can discuss in the Q&A. I have 
gone over my limit, so thanks again for the opportunity, and I 
look forward to taking your questions.
    [The prepared statement of Mr. Badran follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. Dr. Byman?

   STATEMENT OF DANIEL L. BYMAN, PH.D., PROFESSOR, SECURITY 
  STUDIES PROGRAM, EDMUND A. WALSH SCHOOL OF FOREIGN SERVICE, 
                     GEORGETOWN UNIVERSITY

    Mr. Byman. Thank you, Mr. Chairman.
    And, Mr. Chairman, Ranking Member Keating, and other 
members of this subcommittee, I appreciate and am honored by 
the opportunity to testify.
    Rather than repeat much of what has been said, which I 
agree with, I will focus on areas that have not been addressed.
    But let me say from the start, I think I have a slightly 
different view on Iran, which is: Iran can be exceptionally 
aggressive, but Iran can also be exceptionally weak, it can be 
cautious, and it is often self-defeating. And we have to look 
at Iran not only as the aggressive power that it is but, also, 
at times, as the foolish power that it is, as the weak power 
that it is.
    Iran's military is, I would say, largely pathetic, 
certainly by Western standards. Its economy is in free-fall. It 
lacks stature in many countries. And we have to recognize these 
limits even as we try to combat its support for terrorism.
    Let me begin by talking about Syria. The Syrian civil war 
is a very different sort of thing for Iran and has changed much 
of what Iran has done historically. First of all, the Syrian 
civil war, Iran has gone all in. And, from Iran's point of 
view, this is a tremendous success. It is quite fair to say 
that without Iranian support Bashar al-Assad might have fallen, 
and Iran recognizes that.
    However, Iran had to lose relations with a number of Sunni 
allies that it had been working with. And the Palestinian group 
Hamas, in particular, distanced itself from Iran, although 
there are incentives on both sides to stay close.
    Also, what Iran is doing, what Hezbollah is doing in both 
Iraq and Syria is actually more akin to counterinsurgency. They 
are fighting on behalf of governments against rebels. And so, 
in a way, Iran is in a different role than it often has been 
historically.
    Because of Hezbollah's extensive role in Syria, Hezbollah 
in general is more cautious about a widespread confrontation 
with Israel. Hezbollah is overextended. And that certainly 
doesn't mean there will be no confrontation with Israel, but 
for Hezbollah it is exceptionally risky, given how much they 
have invested in the Syria conflict.
    Should Iran get a nuclear weapon, which would be a horrible 
thing, it might exploit that protection and become more 
aggressive in supporting the groups it supports now and even 
reach out to others. If it were thwarted, however, through 
military means, it might use terrorists to take revenge. And, 
in fact, I think this would be likely. Israel is a particularly 
likely target of Iranian-backed terrorism.
    I would say, under current circumstances, Iran is highly 
unlikely to do the most extreme forms of terrorism, such as a 
casualty attack on the 9/11 scale or attacks using 
unconventional weapons. Nor is Iran likely to transfer a 
nuclear weapon, if it had one, to a terrorist group. And I can 
go into my reasons for that should there be interest.
    Should there be additional sanctions on Iran in the name of 
counterterrorism, inevitably they would be seen as sanctions 
because of the nuclear program. And U.S. allies and Europe, in 
particular, would have that perception regardless of the 
justification given in the U.S. context.
    In my view, the United States should identify red lines for 
Iranian behavior, but these red lines need to be things that 
the administration works with Congress on. There were repeated 
Iranian violations of U.S. red lines in Iraq, and the United 
States did nothing. This happened under multiple 
administrations. And there needs to be consensus before Iran 
acts so we know how to respond.
    And, in particular, I will ask that the United States 
consider focusing on plots rather than attacks. Just because an 
attack does not succeed does not mean the intent was not there. 
And, to me, this is an exceptionally dangerous issue, because, 
often, attacks don't succeed simply due to bad luck on the part 
of the attackers.
    And I ask, had the attack on the Saudi Ambassador 
succeeded, had the Saudi Ambassador been killed, had, say, a 
dozen American diners also been killed, what would the United 
States have done? And I ask that we think about that now so 
that we are prepared to respond should there be a similar 
provocation in the future.
    I will also suggest that the United States needs to clarify 
its Syria policy. Right now, the United States is bombing the 
enemy of the Assad regime, and it is not surprising that there 
is a widespread perception in the region that the United States 
has a deal with Hezbollah, the United States has a deal with 
Iran. And, regardless, I don't personally think the United 
States does have that deal, but that perception matters 
probably more than the reality among many U.S. allies, and that 
is hurting broader U.S. interests.
    I will conclude by saying that, in the end, Iran's lack of 
strategic options and its general weakness will make it hard to 
divorce Iran from terrorist groups. It is working with these 
groups in part because it doesn't have better options, and it 
is hard to change that. I think better policies can reduce the 
scope and scale but not eliminate it altogether.
    My formal statement goes into these points more 
extensively, and I thank you for your time today.
    [The prepared statement of Mr. Byman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. Thank you, gentlemen.
    The subcommittee will be in recess until after the series 
of two votes, so we will be in recess until then. We are 
adjourned. Maybe three votes.
    [Recess.]
    Mr. Poe. The subcommittee will come to order. I would ask 
one of the people on the very back row, if you would shut the 
backdoor, I would appreciate it.
    Thank you, gentlemen, for returning, assuming that you may 
have never left. Thank you for your insightful testimony. It 
was excellent.
    I want to start with Yemen and the country of Yemen, a 
supporter, generally, of the United States. Yemen--good 
relationship. Are the Iranians responsible for the overthrow of 
the government?
    Anybody? You all have an opinion, I know.
    Mr. Kagan. I will take it.
    So, at Critical Threats, we have been tracking Yemen very, 
very closely, and we have an analyst looking at this full-time.
    I don't think that the Iranians are responsible for the 
overthrow in the sense that I don't think they ordered it and I 
don't think that they intended for it to happen. I think that 
Iranian strategy in Yemen was, as has been described by all of 
the witnesses and everyone on the panel, about getting their 
tentacles into the government, getting effective control 
without responsibility for elements of the security service. I 
don't think that they intended to sponsor a coup d'etat.
    It is not entirely clear to me that the Houthis intended to 
stage a coup d'etat either. They did, effectively, and we 
should call things by their right names. But I think that they 
may have gotten there by having their bluff called by President 
Hadi in a way that turned a power play into a coup d'etat. I 
think that is possible.
    But are the Iranians supporting the Houthis? Absolutely. 
Are they supporting them in this play? Yep. Will they continue 
to support them? You bet.
    Mr. Poe. And, Mr. Berman? Different answer?
    Mr. Berman. I defer to Tony.
    Mr. Poe. Mr. Badran?
    Mr. Badran. Oh, I am sorry. I wasn't----
    Mr. Berman. No, no, no.
    Mr. Poe. One of you. Mr. Badran. I am going to pick a horse 
and ride it. Mr. Badran?
    Mr. Badran. Okay.
    Well, just to add to what Dr. Kagan said, that now that 
this has happened, the Iranians are not hiding the lofty plans 
that they have for the Houthis and how they want to integrate 
them into their broader network in the region. So you have 
posters of the Houthi leader in Tehran with writings, you know, 
that the revolution, i.e. The Islamic Revolution, continues. 
And so they see it as an extension of their own vision and 
network of alliances in the region.
    And, recently, a Web site affiliated with the IRGC laid 
down what it hopes to see done by the Houthis. And it is 
exactly what I have described, this template that I was talking 
about. They advised them to create Popular Mobilization Units. 
They advised them to integrate with the military forces so that 
you will have the same system that you have in Lebanon, that 
you have in Iraq, whereby you have an asset, an Iranian asset, 
or ally, in this case, shaping the military security and 
intelligence and broader strategic orientation of the state in 
which they are operating. So I think that is what they want.
    And I mentioned--I am not sure if I mentioned in my 
openings remarks that Velayati, Khomeini's consigliere, as it 
were, recently received a delegation of Yemenite Houthi clerics 
in Tehran and again also said to them that he hopes that they 
play the role of Hezbollah in Lebanon.
    So they have their plans, and they see also--you know, he 
even had a statement about how the road to the liberation of 
Palestine will pass through Yemen and so on. So, I mean, they 
have big, big plans, I think, for the Houthis.
    Now, whether the Houthis end up not having much of a choice 
but to go along with these or whether they pull back remains to 
be seen, I think.
    Mr. Poe. You mentioned in your testimony that they were in 
different--Hezbollah and Iran--sponsor of terrorism was in--or 
maybe it was Dr. Kagan--they are in every continent except 
Antarctica. One of you said that. Which one of you said that?
    You don't remember? One of you said it.
    You think you did?
    Okay. Well, how many countries are they involved in? If you 
could be a little more specific.
    Mr. Badran. Right.
    Mr. Poe. In your analysis, you all's analysis, world 
sponsor of terrorism--state sponsor of terrorism, how many 
countries is Iran, with its affiliate Hezbollah or some other 
affiliate, involved in terror, mischief, if I can use that 
phrase?
    Mr. Badran. I think one way to look at it--and this is not 
comprehensive--one way to look at it is, wherever there is a 
Shia, especially Lebanese Shia, population--for instance, in 
West Africa--that gives them an opportunity, gives them a pool 
of recruits. Same thing applies to South America, where there 
is a large Lebanese constituency. So then they latch onto that.
    And since Hezbollah now is really the dominant force among 
the Lebanese Shia, that extends into these areas. So the guy, 
for instance, that the Peruvian police arrested in October had 
a Sierra Leonean passport. Sierra Leone is where a lot of 
Lebanese Shia expats live and control much of the business. 
Nigeria, same thing. And that is where you had an operation 
that the Iranians were involved in with arms trafficking.
    So they sit at the nexus of these things, in whatever they 
can procure money, weapons, smuggling, or recruit operatives. 
So I will stop at this particular angle, but I am sure----
    Mr. Poe. So they are opportunists. They take the 
opportunity, when a situation in a particular country meets 
their needs because of the local population, that they get 
involved.
    How many countries would that be? That is really my 
question. Just give me a ballpark figure. Somebody.
    Mr. Berman. I would just chime in here at this point and 
say that I think it is difficult to come up with anything 
resembling an accurate tally, because what you have, in many 
instances, are moments in time----
    Mr. Poe. Okay.
    Mr. Berman [continuing]. Sort of impressionistic events. 
For example, in Thailand and in New Delhi in 2012, when you had 
the attempted terrorist attacks on the Israeli persons of 
interest and targets, it wasn't clear that there was a 
longstanding, established Hezbollah or IRGC cell, but it was 
clear that, for that particular operation, it was operating in 
those countries.
    That makes it difficult to quantify exactly what size the 
global footprint is. But it is clear that, where there is empty 
political space, as there is in Latin America, where there is 
economic opportunity and the opportunity to exploit gray and 
black markets, as there is in Asia, the IRGC is very heavily 
involved, and, to a lesser extent, so is Hezbollah.
    Mr. Poe. One more question regarding that issue. Where does 
Iran get the money to be the state sponsor of terror that it 
is, to pay for all of these operations? Whether they be a 
moment in time or whether they be long-term, where do they get 
the money?
    Mr. Byman. Mr. Chairman, part of why Iran sponsors 
terrorism is it is relatively cheap compared to other 
alternatives.
    It gives a lot of money to the Lebanese Hezbollah. So you 
can cite any figure you want, but let's say several hundred 
million a year. But in the vast majority of other cases, we are 
talking low millions, we are talking often single-digit 
personnel. And if you compare that to the cost of, say, you 
know, having a brigade in a combat zone, it is peanuts.
    So, in a strange way, this is a way of saving money rather 
than spending money, the exception, though, being Lebanon in 
the past and I would say Syria, in particular, today, where 
Iran is pouring I have no idea how much, but it is, I would 
say, in the high hundreds of millions, billions. I am not sure 
of the exact figure.
    Mr. Poe. So they get more bang for their buck. Even 
probably with the cost of developing the nuclear weapons, they 
can go and commit specific acts of terror for a lot less money.
    Mr. Byman. I would put nuclear weapons and terrorism on, 
kind of, two ends of a spectrum, where terrorism gives you lots 
of local capabilities, lots of ways to do small-scale things, 
and, of course, a nuclear weapon is the other extreme.
    Mr. Badran. The other aspect, also, is when you have a 
group like Hezbollah that has gotten into a position of 
prominence in the Lebanese state, it gives them opportunities 
to exploit corruption and other ventures within the Lebanese 
state to make money--racketeering, drug trade, weapons 
smuggling, and so on and so forth.
    And then when you latch on the extra layer of Lebanese 
Shiite businessmen, very well-to-do, in Latin America, West 
Africa--for instance, in Angola, the Treasury Department has 
designated a Shia businessman, three brothers actually, 
vastly--the Tajideen brothers--very successful. They are all 
Hezbollah operatives, right? So a lot of these guys they can 
either extort money from or just simply incorporate into their 
financial networks.
    So there are multiple revenues that they can actually draw 
on.
    Mr. Poe. Thank you.
    I will yield to the ranking member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chair.
    Given the apparent opposite positions on the civil conflict 
in Syria, what is your assessment of the current state of 
relations with Iran and Hamas? And to what extent did Iran back 
Hamas in the July 2014 conflict with Israel?
    Mr. Badran. I think, in many respects, that war was Hamas's 
way of reorienting its ship back to Iran.
    The Iranians have been able to sort of get beyond the 
political leadership of Hamas, Khaled Meshaal and all these 
guys that broke with Syria and broke with the axis once the 
Syrian revolution broke out, and reach directly to the military 
commanders. So now you have a lot of more prominence of the 
Qassam Brigade commanders and the various other--Islamic Jihad, 
for instance, got its profile heightened as a result of Hamas's 
abandonment of Bashar.
    Although, now, they are right on the, sort of, road to 
penance back to Tehran. And you hear a lot of reports about 
impending visits to Tehran by Khaled Meshaal, for instance. 
And, ironically, it is actually Bashar al-Assad who is saying, 
no, not yet, he has to pay for it some more, he has to beg some 
more, he has to be made to pay for his sins some more.
    So I think the Iranians--Hamas knows that neither Turkey 
nor Qatar, nobody else can actually replace Tehran as a source 
of firepower for them. So they don't have a choice; they are 
going to maintain that relationship.
    Mr. Keating. Okay.
    Mr. Berman. Sir, if I may, I was actually in Israel right 
at the tail end of the 50-day Gaza war last year, and I had 
very interesting conversations with a number of Israeli 
officials, who made the point of telling me that what had 
happened was essentially a strategic tie, that Hamas had gained 
something in terms of renewed ideological relevance and 
legitimacy, but that Israel had gained something, too, because 
it had managed to erode Hamas's stockpile of short-range 
rockets; it had managed, sort of, to go into Gaza and hollow 
out the arsenal.
    The reality is, I think, that the proper context to 
understand the Gaza war is as a bid for continued relevance on 
the part of Hamas. If you look at what had happened in the 
months preceding, Hamas had found itself unexpectedly the 
junior partner in this hybrid Palestinian Authority unity 
government that Mahmoud Abbas had proposed, and their funding 
stream had dried up from Iran because Hamas and Iran had 
essentially fallen out over Syria, and Hamas had had its budget 
zeroed out, effectively. The end result was that Hamas had to 
rely on sponsors like Turkey, like Qatar to pay salaries, for 
example, in the Gaza Strip.
    That is not the case today. What you are seeing today is a 
renewed closeness of ties between Hamas and Tehran, animated by 
Hamas's being able to prove itself as a vanguard of the 
Palestinian resistance, as they would term it, but also by 
interest from Iran in regaining some of the ground in the Sunni 
world that it has lost over the last 3 years because it has 
supported Bashar al-Assad's Syria in a way that has alienated 
its traditional allies or at least its traditional partners.
    Mr. Keating. We have made a lot about the commonality of 
Iran and U.S. in terms of ISIS. But there are reports that have 
surfaced about--leave it that way--about the brutality of the 
Shia militia from Iran, not only going after ISIS but then, 
given the opportunity, just brutally attacking Sunni tribes. 
And, of course, in the big picture, that creates an enormous 
problem, you know, for any kind of success in the long run.
    Do you want to comment on that aspect of their actions?
    Mr. Kagan. I would love to.
    I think that the commonality of interest with Iran over 
ISIS is greatly exaggerated. We have an interest in separating 
ISIS from the Sunni community and bringing the Sunni community 
back into polities of which it has historically been a part in 
Iraq and Syria and elsewhere.
    Iran, whatever their statements, tends to see the Sunni 
community as ISIS, and their militias certainly treat them in 
that way. So the reports of brutality and mass executions and 
mass graves in Diyala province are well-documented, but even, 
in addition to that, one of the reasons Baghdad is relatively 
secure now is because the Shia militias went into a small area 
called Jurf al-Sakher, southwest of Baghdad, which was a Sunni 
area and has long been an AQI and now ISIS support, and they 
just moved everybody out. They just took the entire Sunni 
population and moved them out. And they have no plans to bring 
them back.
    And that fact came up repeatedly in discussions that I had 
in Baghdad, with Sunni leaders and others saying, you know, you 
want the Sunni community to work with Baghdad, but, you know, 
the example is Jurf al-Sakher. So this is definitely much more 
of a problem than any commonality in interest we might have.
    Mr. Keating. Yeah. Well, thank you.
    I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The Chair recognizes the gentleman from New York, Mr. 
Higgins, for his questions.
    Mr. Higgins. Thank you very much, Mr. Chairman, for holding 
this important hearing.
    I just kind of want to explore the role of Qasem Soleimani. 
You know, we have read in the last several months about him. He 
is probably the most influential force in the Middle East, not 
necessarily for good, right now--in Iraq, in Syria, in south 
Lebanon with Hezbollah.
    I am interested in your thoughts about him, and his 
influence embellished or is that an accurate description of his 
outsized influence?
    Mr. Kagan. Well, he is, in fact, extremely important. He 
does work directly to the Supreme Leader. We call it the IRGC 
Quds Force. There is the notion that he is subordinated to the 
IRGC commander, General Jafari. In reality, I do not believe 
that he is actually subordinated. He does work directly to the 
Supreme Leader, and they have a very close relationship.
    And Soleimani has bragged to American commanders in the 
region about how he is their opposite number and how he is in 
control of things. And there is a lot of bravado there, but he 
clearly is in control of a lot of the military operations that 
are going on in Iraq and Syria, especially by militia elements.
    One of the things that our team has been observing, 
however, that is very interesting is that there has been a 
conscious and deliberate campaign by IRGC senior commanders 
over the past several months to build him up, and it has become 
a mayor regime PR objective to establish him as a major figure. 
We are still noodling what that is about. It is not entirely 
clear what the regime or this element of it intends to 
accomplish.
    But he is definitely dominant in the region, but there is 
also a campaign to make him seem even more significant than he 
might be.
    Mr. Berman. If I could add just 10 seconds on what Dr. 
Kagan said, I think that is exactly right.
    It is necessary to understand Soleimani in the two 
constituencies in which he moves. The first is the external 
one, in which he is a fixer and he is sort of a jack of all 
trades in Iraq and, to some extent, in Syria, as well. He has 
famously boasted to General Petraeus when Petraeus was in 
charge of U.S. Forces in Iraq that he was his opposite number, 
that he was in control of Iranian policy, not only in Iraq but 
also in Afghanistan and in Syria.
    But the messaging campaign that you see coming out of the 
regime now--and it is, by the way, broader than just the IRGC. 
It looks very much like a public diplomacy push on the part of 
the Iranian regime. It has cast Soleimani in the light of a 
savior of the Islamic republic.
    Because one of the things, I believe, that the regime is 
trying to do is to rally public opinion around Iran's 
expeditionary forces. And the perfect target of that is ISIS. 
Soleimani is now at the tip of the spear in the Iranian fight 
against ISIS, and he is being perceived more and more not like 
a knight-errant on the part of the Supreme Leader but as a 
champion for the regime itself. It is one that has, I think, 
rebounded to the benefit of the stature of the IRGC writ large 
within Iran itself.
    Mr. Badran. Just very quickly, also, in this particular 
angle in southern Syria, the recent strike that the Israelis 
did there targeted a major general in the Quds Force that 
actually was brought in by Soleimani, so he is very much seen 
as Soleimani's guy in Syria.
    In addition, it targeted Jihad Mughniyeh, Imad Mughniyeh's 
son. Jihad Mughniyeh, there are a couple of stories about him. 
One was that he was living as a playboy in Beirut, and the 
party, because of the importance of his name and the legacy of 
his father, took him and shipped to Tehran, where, actually, 
Soleimani took him under his wing. And you will see a lot--at 
the funeral of Soleimani's mother, Jihad Mughniyeh was right by 
his side, and he was kind of seen as his protege, probably 
being groomed for some future role. And the fact that he was 
with Soleimani's man in southern Syria suggests that they had a 
lot of plans for him as that.
    But, as Dr. Kagan and Berman have said, basically there is 
a huge information operation that the Quds Force is running, 
with Qasem Soleimani popping up in pictures everywhere on every 
front, including, now, supposedly in southern Syria as they are 
making a push to the south. Nobody knows if it is real or not; 
it is just that they want to put his face that he is on the 
front line, Iran is on the front line through Qasem Soleimani 
on every front, both with the Israelis and with ISIS, in the 
region.
    Mr. Byman. Sir, I will only briefly add that, although we 
focus a lot on Soleimani, the Quds Force, the IRGC, they report 
to the Supreme Leader. They reflect Iranian policy. Policies 
are coordinated. They are quite good at what they do, and they 
also are given some freedom to act. But, in general, we always 
need to remember this is Iranian policy rather than, 
necessarily, Quds Force policy.
    Mr. Higgins. I am out of time.
    Mr. Poe. I don't use this word very often, but I will be 
liberal with the time if you have another question or two.
    Mr. Higgins. Well, the recent Shia militia victory over 
ISIS in Iraq by the Badr organization--who is the primary 
influence in the Badr organization?
    Mr. Kagan. So the Badr organization is commanded by Hadi 
al-Amiri, who is an Iraqi. He is a subordinate, basically, of 
Qasem Soleimani, along with another Iraqi, nominally, named 
Muhandis, who is the leader of the Kata'ib Hezbollah militia, 
and he is also a subordinate of Soleimani.
    Mr. Higgins. If Congress authorizes the President to commit 
ground troops in Iraq, aren't we entering into a similar 
situation that we entered into in 2003?
    I mean, it is not as though, you know, American troops 
would just be fighting ISIS, which--it is estimated there are 
some 30,000 fighters, which I still don't quite understand, and 
anybody who looks at it rationally should question this.
    You have the Peshmerga, which is 190,000 fighters proven to 
be Western/United States allies, proven to be reliable, proven 
to be experienced. You have the Iraqi National Army; let's say 
conservatively it is another 175,000. And you have the Shia 
militias. And then you have, you know, an estimated 31,000 ISIS 
fighters. We should be--the math doesn't add up to a situation 
that we have right now, where ISIS is still dominant in that 
country.
    And my sense is that Soleimani will be using these Shia 
militias to fight both ISIS and the United States, because that 
is their history. And the bottom line is, for the second term 
of Nouri al-Maliki, Soleimani cut the deal not in Baghdad but 
in Tehran. And, you know, the consensus was that we will all be 
part of this bad deal under one condition, that the Americans 
leave.
    I am just very concerned about what happens if we commit 
ground troops, even on a limited basis, to Iraq to fight ISIL 
because we will be fighting other forces that we fought 
previously, as well. That is my last thought.
    Mr. Kagan. If I could respond to that?
    Mr. Higgins. Sure.
    Mr. Kagan. It is a very legitimate concern. And I think 
that it is quite possible that a significant American presence 
in Iraq could be targeted by Iranian militias. But I am a bit 
more concerned about what is likely to happen if we don't 
involve ourselves and if we don't offer the Iraqis an 
alternative.
    I would not be supportive of sending American troops into 
Diyala. That is controlled by Badr; it is controlled by 
Soleimani. The Iraqi Army unit there is infiltrated. But our 
general assessment is that there are Iraqi units in Anbar, in 
Ninawa, elsewhere, that are not controlled by the Iranians and 
that don't want to be controlled by the Iranians and that want 
to have an alternative.
    And I would submit, this isn't really about ground forces 
versus not ground forces. I mean, we have boots on the ground 
there now. You know, we don't say that, but that is--they have 
boots, and they are on the ground. We are in it. And I think we 
have had a positive impact.
    I think we need to continue in a way that makes it clear to 
the Iraqis that they can have one set of advisors at any given 
moment. They can have Iranian advisors, or they can have 
American advisors. And that goes unit by unit. I think that you 
will find that, in a lot of places, they will prefer to have 
American advisors because we can bring a lot more to the table 
if we choose.
    Now, the Iranians will resist that. Will they attack us? I 
don't know. There is a lot that goes into that calculous. And, 
of course, they can attack us anyway if we are in the region.
    But I think that we need to be very cognizant of the danger 
of being absent from this conflict in such a way that we give 
the Iraqis proof when they say, ``Hey, the Iranians are here, 
and you are not. You know, what do you want us to do?''
    Mr. Badran. There is another concern I think that we have 
to keep in mind, is that there is a reason why the United 
States has failed to recruit significant Sunni tribes to fight 
this fight. And the reason ISIS's power is so magnified is not 
because of how many people it has; it is because of the 
alliances that it has among the Sunni tribes.
    And the reason why it is capable to have this alliance is 
because of the nature of Iranian influence in the Baghdad 
government and the security forces, Ministry of Interior in 
particular. The Badr organization is very strong in the 
Ministry of Interior. In fact, the head of the Ministry of 
Interior is very much a subordinate of Hadi al-Amiri that Dr. 
Kagan mentioned.
    And so I think, once the--this is what I talked about in my 
testimony in terms of the synergy or the fusion between the 
Shiite militias on the one hand and the central government and 
how it completely complicates our ability when it comes to the 
Sunnis, both on partnering with the Sunnis and on defeating 
Sunni radical groups like ISIS.
    So I think the perception of us coming into Iraq sort of 
shoulder-to-shoulder with a very dubious, penetrated central 
government to fight Sunnis is going to harm, I think, our 
alliances with a lot of Sunnis unless we, sort of, really 
leverage our interference to review how we deal with the 
Baghdad government and what the nature of the Baghdad 
government is.
    Mr. Poe. I thank the gentleman from New York.
    The Chair will now recognize one of our new members, Ms. 
Kelly from Illinois, for her questions.
    Ms. Kelly. Thank you, Mr. Chair.
    I want to thank the committee and the witnesses for the 
opportunity to have this important discussion today.
    I just came from the House floor, and we had a moment the 
silence for Kayla Mueller. And her death is a real reminder to 
us of all the challenges that we face in this world.
    As we discuss global threats and Iran, I wanted to ask, how 
do you see Iranian objectives in Iraq different than the United 
States objectives?
    Mr. Kagan. Well, I think the Iranians have a number of very 
clear objectives, and one of them that is in conflict is their 
objective is to get us out and keep us out forever, and our 
objective is, or should be, to continue to play some role. And 
I am not talking here about military. I am talking about 
influence--political, economic, and so forth.
    The Iranians very much would like Iraq to be subordinate to 
them, loyal to them, or at least hostile to us, and they have 
been working hard to make that happen. They are determined to 
ensure that there is a Shia government in power in Baghdad and 
that the Sunni are marginalized, because they see the Iraqi 
Sunni largely as a threat. And they have a number of other 
objectives with regard to the Kurds where we may or may not be 
a little bit crossed.
    But the most important conflict in our interest is not just 
in Iraq but it is around the region. The Iranians are very 
explicit about this in their statements and their actions. 
Their objective is to eject us from the Middle East entirely. 
That is their goal. And they work on making that happen. Our 
objective is to remain engaged in a region that is of critical 
strategic importance.
    Ms. Kelly. Uh-huh.
    Mr. Kagan. As long as those interests are crossed in that 
way, we are going to be having problems.
    Ms. Kelly. Did you want to----
    Mr. Berman. Just to add a layer of complexity to what Dr. 
Kagan said, I think it is necessary to understand Iran's 
objectives in Iraq through prism of ideology as well.
    When the Ayatollah Khomeini swept to power in Tehran 36 
years ago this month, he was both the rahbar, the political 
leader of the Islamic republic, and the marja taqlid, the 
ideological religious model of emulation.
    The current Supreme Leader was a consensus candidate that 
emerged in 1989 after Khomeini's death. He is superceded in the 
hierarchy of Shiite theology by a number of clerics, most 
importantly a gentleman by the name of Ali Sistani, who is an 
Iraqi cleric.
    So, when we talk in the context of what Iran wants in Iraq, 
the question of Iraqi independence is not just about Iraqi 
political independence; it is also about Iraq's ideological 
independence. Because an independent Iraq that is capable of 
embracing the quietest tradition that Sistani espouses will be 
both an ideological and a political threat to Iran. So Iran's 
objectives in Iraq are not only to keep us out but to keep 
other interpretations of Shiite Islam down.
    Mr. Byman. I will add only briefly that Iran also wants a 
weak Iraq and is comfortable with a low level of instability. 
Iran does not want the scale of violence that is happening in 
Iraq now, but they are much more comfortable with the low level 
because it makes the Iraqis dependent on Iran, and they are 
quite pleased with that. So some degree of strife and keeping 
Iraq off balance, in a way, serves the Iranian goals that Dr. 
Kagan identified.
    Ms. Kelly. Where do you see Iran's influence in Iraq? Like, 
where is it strongest, and where is it weakest?
    Mr. Byman. What the Iranians are very good at, of course, 
is working with an array of Shia groups. And they have very 
good ties to the main government, to the Abadi government.
    However, Iran hedges its bets. So it works with groups, 
Shia groups, that at times shoot at each other. And it works 
with violent ones; it works with more moderate ones. It also 
works with an array of Kurdish groups. It has reached out to 
some of the crazy Sunni groups that would happily kill a Shia 
if they saw one. So Iran is almost painfully pragmatic in its 
willingness to work with groups.
    Its influence is strongest, I would say, certainly in the 
Shia areas. Also, it has a lot of local influence along its 
border. Iran looks at Iraq not just as a country but as a 
series of regions and cities and towns, and it tries to buy 
influence at the local level, as well.
    Ms. Kelly. Anyone else?
    Mr. Kagan. I think that Iran's influence varies. I think, 
overall, Iran's influence in Iraq is higher than it has ever 
been. But it does vary, and it is changing, and interesting 
things are going on, primarily, I would say, because of the 
degree to which the Iranian-backed militias have effectively 
shown that they are completely independent of the Iraqi 
political leadership and actually are acting just as 
subordinates of Soleimani.
    And that has had the effect of scaring the Shia political 
leadership in Iraq about these militias and about what the 
Iranians are actually trying to do. Does it reduce Iranian 
influence? You know, not necessarily. But it has created, I 
would say, a different atmosphere in which that influence is 
received.
    And, again, I think, frankly, it is an opportunity for us, 
because Hadi al-Amiri and Muhandis have shown their hands, and 
they have shown Iran's hand also, much more than they have in 
the past, not in terms of their activities, because they are 
not doing much that is very different from what they have done 
before, but in terms of their posturing.
    And it is interesting to see--Muhandis is a guy who was 
always a shadowy figure, because he was known to be, you know, 
working with the Quds Force and he was known to be running a 
militia for the Iranians, and generally you didn't see him a 
whole lot. Recently, he has been very prominent. He has been 
puffing his chest out and making much of himself and making it 
clear that he is a strong fighter. That doesn't play well with 
the traditional, established Shia elites and, I think, with a 
lot of the Iraqi Shia population that is concerned about this.
    So I think the dynamics are not positive for us, but they 
are complicated in ways that we could, I think, potentially be 
taking advantage of.
    Ms. Kelly. Thank you.
    I yield back.
    Mr. Poe. I thank the gentlelady.
    The Chair will now recognize one of our newer members, as 
well, from the State of Illinois, Mr. Zeldin--New York. Sorry.
    Mr. Zeldin. That is okay. Thank you, Mr. Chairman.
    And I appreciate everyone being here for this important 
hearing.
    Taking a step back and, just generally, as we are watching 
the negotiations taking place between the Obama administration 
and the Iranian Government, I was struck, not too far back in 
history, when the State Department had indicated that they had 
reached a tentative deal, and the Iranian Government literally 
within 24 hours was refuting the terms of that agreement.
    So who are we really negotiating--like, playing this out 
for a second, let's say over the course of the next month or so 
the President negotiates a deal just to negotiate a deal and it 
contains foolish concessions that can put the Iranian 
Government within 60, 90 days of being able to have a nuclear 
weapon. What is next?
    From a 30,000-foot level, you are watching this unfold. And 
each of you have a lot of experience and background with this. 
What is next? What is the risk? Who are the players? What do we 
expect the Iranian Government to do next?
    For me, personally, I don't trust them. I wish that, you 
know, instead of us reducing sanctions we would be increasing 
sanctions.
    So just--I mean, it is an open question for you. But, you 
know, I have four experts here. I am able to ask this real 
basic question. Where are we going?
    Mr. Kagan. I think it is a great question, and I think it 
is a very important one.
    You started to ask the question, who are we negotiating 
with? I actually think that is pretty clear. We are negotiating 
with the Supreme Leader. And there is a lot of, you know, rug-
merchant negotiation going on, and the public statements don't 
necessarily shape me that much in terms of what the ultimate 
deal is going to look like, if there is going to be a deal. 
Everyone is shaping the environment.
    But what is next? I think that if we have any kind of a 
deal that provides some kind of sanction relief--and I don't 
think we can have a deal the Iranians would accept that doesn't 
provide some kind of sanctions relief--I think Iranians will 
take advantage of that to try to stabilize their economy, to 
put through some economic reforms that they are working on, and 
to try to modernize their economy in a way that will make it 
more competitive and more self-sustaining.
    There are some tensions in this regard, I think, between 
President Rouhani and Ayatollah Khomeini. Khomeini seems to 
want to drive for sort of autarky to make Iran completely 
independent from the international community so it will never 
be vulnerable to sanctions again. Rouhani is a better student 
of economics and seems to understand that that is not going to 
work.
    But, for now, the dispute isn't very important, because 
they are clearly working on trying to get their economic feet 
underneath them, and any kind of sanctions relief in the first 
instance they will put toward trying to get that under control.
    What will they then do? They will continue to pursue their 
objectives of driving us out of the region, establishing 
regional hegemony, and, of course, in my opinion, maintaining 
the ability to develop a nuclear weapon at the moment of their 
choosing.
    Mr. Berman. Sir, if I could just add to what Dr. Kagan 
mentioned, I think the economic metrics are actually very 
compelling, and it is useful to sort of understand what we are 
looking at.
    In 2012, as a result of U.S. and European sanctions levied 
on Iran, the Iranian economy constricted by roughly 5 percent. 
In 2013, it constricted by about 3 percent. Last year, it grew 
marginally as a result of sanctions relief, and it is on track 
this year to grow by between 1\1/2\ and 3 percent.
    What this shows you is that, in the interim, in the year 
and a half that Iran has had greater breathing room, it has 
used that time judiciously to put its economic house in order. 
It has also, on a parallel track, as the State Department has 
noted, stepped up its sponsorship of global instability, as 
manifested in places like Syria and Yemen.
    And so I think there is very much a causal relationship 
here. Terrorism is cheap, but it is not cost-free. The Iranian 
regime sees this as a deep-seated imperative. If it has more 
money, it is likely to invest more in it. I think it is quite 
as simple as that.
    Mr. Zeldin. Yeah.
    You know, I see, obviously, the--we all see the economic 
benefit for Iran to be engaging in these negotiations. We see 
the strategic benefit for Iran. The problem is Iran is here and 
the U.S. here, Iran is here, the U.S. is here, Iran stays here, 
the U.S. is here.
    And, you know, it is like here in American politics we are 
trying--you know, we have a President who is all politics all 
the time. His only version of compromise is to get it 100 
percent his way. And now we are oversees with an enemy that 
does not respect weakness, they only respect strength.
    I advocate for a stronger, more consistent foreign policy. 
We are negotiating with an element that is not our friend, who 
should not be trusted. They get these benefits, but they are 
going to be literally a turnkey away from, you know, having a 
nuclear weapon. They want to wipe Israel off the map. They will 
continue to be state sponsors of terrorism. The economic 
benefit will drive their efforts to be state sponsors of 
terrorism.
    I am just--I am greatly concerned, and I do not trust that 
negotiating partner on the other side. And I appreciate the 
chairman for having this hearing to bring some light to it, 
because I hope that something cracks the code to turn the tide. 
That is why I welcome the Prime Minister coming here to address 
a joint session of Congress. And I hope that we don't make a 
deal just to make a deal.
    I yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair now will recognize the gentleman from California, 
Mr. Sherman, for his questions.
    Mr. Sherman. I would point out that Reagan negotiated with 
Brezhnev, Roosevelt negotiated with Stalin. And so it is not a 
fair political attack to say Obama must be a bad President 
because he negotiates with Iran. You make peace, or try to make 
peace, with your enemies, not your friends. And, of course, we 
negotiated with North Vietnam as they were killing our troops 
on the ground.
    Whatever deal is reached, or if a deal is reached, with the 
Iranians is basically a 2-year deal; that is to say, the 
President will use what he sees as his power to waive sanctions 
for 2 years.
    I have come to listen to my Republican colleagues, and when 
asked what are the chances that their leader, Mr. Boehner, is 
going to bring to the floor the ``Thank God Obama is President 
and Did Such a Great Job of Negotiating a Superb Deal with Iran 
Act of 2015''--and I am asked what the chances of that are, I 
say, well, what are the chances that Julia Roberts calls me 
this afternoon?
    So it is a 2-year deal, if there is a deal at all, subject 
then to the next Congress and the next President. It is 
guaranteed to be a poor deal because we are not in a position 
to get a great deal. What are our other options? The military 
option has barely been discussed here because it is highly 
unattractive, especially to the American people at this time.
    And so I want to focus a little bit on sanctions. Iran 
doesn't just want a bomb. Nobody wants a bomb. You want half a 
dozen bombs. You certainly want to test one when you want to 
start being treated like a nuclear power.
    And so we talk about sanctions. The most successful use of 
sanctions was against South Africa, which were universally 
embraced, totally multilateral, and took years to be effective.
    So I would ask the panel here, help us draft the additional 
sanctions act, whether it is of 2015 or 2017--we might as well 
as start now; it is probably 2015.
    But, also, comment on whether there are any sanctions you 
could imagine that wouldn't just threaten Iran with a mild 
recession, you know, negative-2-percent growth instead of 
positive-2-percent growth. Is there any sanction that you could 
suggest to us that would threaten the regime's survival in the 
timeframe it would take to create two or three nuclear weapons?
    Dr. Byman?
    Mr. Byman. As I am sure you know, Mr. Sherman, sanctions 
don't work quickly, right? If we look at South Africa as the 
shining example of their success, that was a decade-long 
process. And----
    Mr. Sherman. And they didn't cause, like, rioting in the 
streets. They caused a decision by what ultimately was a 
government that made a rational decision. I mean, we deplore 
apartheid, but eventually that group--I mean, it was not the 
Supreme Leader that let Mandela out of jail and gave him the 
Presidency of the country.
    Go on.
    Mr. Byman. And the reason sanctions, I think, led Iran to 
the negotiating table was because they involved a wide array of 
U.S. Allies and Iranian trading partners and they hit Iran 
quite deeply. And to sustain sanctions and to make them more 
effective, you need that comprehensive approach. And we will 
only get that if our allies believe that we are not eager to 
reject a deal with Iran.
    And so I don't think anyone trusts the Iranians. I have 
heard the President say repeatedly he does not trust the 
Iranians. But if we are seen as not negotiating, we will lose 
allied support, and that is bad for sanctions.
    Mr. Sherman. I would point out that, unless we are willing 
to do the secondary sanctions approach--which is called for by 
present statute. But to say to Germany, ``You sell one paper 
clip to Iran, we are not going to let you send a single 
Mercedes to the United States,'' I mean, those are fighting 
words. That is outside the pale of our relationship with 
Europe. But unless we are willing to do that, Germany will sell 
nonlethal materials to Iran in a way that helps their economy 
just as soon as they are convinced that the United States is 
not behaving reasonably.
    And, oh, by the way, if President Obama says we are not 
behaving reasonably, Congress will not be able to convince them 
to the contrary. Obama may not be popular with everybody in 
Congress; he is considerably more popular in Europe.
    I will go on to the next witness, Mr. Badran. What is the 
Achilles' heel that we ought to be aiming at?
    Mr. Badran. Well, I am no sanctions expert, but I think the 
oil sector, I think, was one of the areas that people were 
looking to to hit hard.
    Mr. Sherman. Clearly, taking Kirk Menendez down to zero is, 
like, first on everybody's list of----
    Mr. Badran. Right.
    Mr. Sherman [continuing]. Additional sanctions.
    Mr. Berman?
    Mr. Berman. If you don't mind, I would like to amplify a 
point that you made about secondary sanctions on trading 
partners of the United States that also happen to be trading 
partners of Iran.
    In this particular case, there is no country that looms 
larger than China. China consumes about 60 percent of Iranian 
total global oil exports, and it has ramped up consumption. 
Since the administration has applied a moratorium on reporting 
with regard to the 2010 Comprehensive Iran Sanctions, 
Accountability, and Divestment Act, the Chinese have actually 
increased their imports of Iranian oil, which means that, 
without Chinese acquiescence to trimming Iran's global economic 
footprint, it is going to be very difficult to really put Iran 
in a box in a meaningful way. And that means----
    Mr. Sherman. So we can hurt their economy, but, without 
China, we can't threaten regime survival.
    Mr. Berman. That is right.
    Mr. Sherman. And so we would have to have not only the 
political gumption that it takes to be opposed to Iran, we 
would need to take on Walmart. I don't know if the people in 
the room are powerful enough to do that.
    I will go on to Dr. Kagan.
    Mr. Kagan. Congressman, there is no magic silver bullet 
that we could, you know, pass along a sanction and take down 
the regime. And I wasn't aware that we were even talking about 
trying to take down the regime. The purpose of the sanctions--
--
    Mr. Sherman. Well, in this room, many have said that this 
regime will hold on to its nuclear program unless it faces a 
risk to regime survival, that if it is just a matter of a bad 
day on the Tehran stock market or a bad year on the Tehran 
stock market, they would willingly pay that price.
    Mr. Kagan. I would need to think about whether I agree with 
that or disagree with it. But what I would say is that if the 
discussion is now about how to threaten the regime's survival, 
that is a very different context from the discussion in which 
we have been talking about sanctions hitherto, which have 
really been fundamentally focused on putting enough pressure on 
the regime to make the Supreme Leader change his calculus. And 
I agree with you that that is not going to be easy.
    Mr. Sherman. I would just say nobody gives up their 
firstborn just to get a lower ATM fee.
    And I yield back.
    Mr. Poe. I thank the gentleman.
    Thank all members of the subcommittee for being here today, 
and especially our witnesses. It has been excellent.
    All of your statements, official statements, will be made 
part of the record.
    And this subcommittee is adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
